<html>
<title> - MARKUP OF H.R. 1883, THE IRAN NONPROLIFERATION ACT OF 1999; AND H.R. 2367, THE TORTURE VICTIM RELIEF REAUTHORIZATION ACT OF 1999</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]


<DOC>
[106th Congress House Hearings]
[From the U.S. Government Printing Office via GPO Access]
[DOCID: f:64063.wais]

 
 
 MARKUP OF H.R. 1883, THE IRAN NONPROLIFERATION ACT OF 1999; AND H.R. 
      2367, THE TORTURE VICTIM RELIEF REAUTHORIZATION ACT OF 1999

=======================================================================

                                 MARKUP

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                      THURSDAY, SEPTEMBER 9, 1999

                               __________

                           Serial No. 106-94

                               __________

    Printed for the use of the Committee on International Relations



                    U.S. GOVERNMENT PRINTING OFFICE
64-063 CC                   WASHINGTON : 2000






                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
                     Jill N. Quinn, Staff Associate




                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

Markup of H.R. 2367, The Torture Victims Relief Reauthorization 
  Act of 1999....................................................     1
Markup of H.R. 1883, The Iran Nonproliferation Act of 1999.......     4

                                APPENDIX

Prepared statements:

Hon. Joseph Crowley, a Representative in Congress from New York, 
  concerning H.R. 1883...........................................    75

Bills and amendments:

H.R. 2367........................................................    22
Admendment to H.R. 2367, offered by Rep. Smith...................    27
H.R. 1883........................................................    28
Admendment in the nature of a substitute to H.R. 1883, offered by 
  Rep. Gilman and Rep. Gejdenson.................................    40
Admendment to the Gilman/Gejdenson amendment in the nature of a 
  substitute, offered by Rep. Brady..............................    81

Additional material submitted for the record:

Letter sent to Assistant Secretary Karl Inderfurth, Department of 
  State, dated August 25, 1998, submitted by Rep. Rohrabacher....    54
Letter sent to Assistant Secretary Karl Inderfurth, Department of 
  State, dated August 3, 1999, submitted by Rep. Rohrabacher.....    56
Requested State Department documents relating to Afghanistan, 
  submitted by Rep. Rohrabacher..................................    57
Letter from Assistant Secretary of State for Legislative Affairs 
  Barbara Larkin, stating the Administrations views on H.R. 1883, 
  submitted by Rep Gilman........................................    82




MARKUP OF H.R. 1883, THE IRAN NONPROLIFERATION ACT; AND H.R. 2367, THE 
               TORTURE VICTIMS RELIEF REAUTHORIZATION ACT

                              ----------                              


                      Thursday, September 9, 1999

                  House of Representatives,
              Committee on International Relations,
                                           Washington, D.C.
    The Committee met, pursuant to call, at 10 a.m. in Room 
2172 Rayburn House Office Building, Hon. Benjamin A. Gilman 
[Chairman of the Committee] presiding.
    Chairman Gilman. The Committee on International Relations 
meets today in open session pursuant to notice to take up two 
bills, the Iran Nonproliferation Act and the Torture Victims 
Relief Reauthorization Act, H.R. 2367. We will first be 
considering the torture victims bill.
    The Torture Victims Relief Reauthorization Act of 1999, 
H.R. 2367, was referred by the Speaker to the Committee on 
International Relations and also to the Committee on Commerce, 
in each case for consideration of such provisions as fall 
within the jurisdiction of the committee concerned.
    The Chair lays the bill before the Committee. The clerk 
will report the title of the bill.
    [The information appears in the appendix.]
    Ms. Bloomer. H.R. 2367, a bill to reauthorize a 
comprehensive program of support for victims of torture.
    Chairman Gilman. Without objection, the first reading of 
the bill will be dispensed with. The clerk will read the bill 
for amendment.
    Ms. Bloomer. Be it enacted by the Senate and the House of 
Representatives of the United States of America in Congress 
assembled, Section 1. Short title. This act may be cited as the 
Torture Victims Relief Reauthorization Act of 1999.
    Chairman Gilman. Without objection, the bill is considered 
as having been read. It is open to amendment at any point.
    I will now recognize myself for as much time as I may 
consume.
    I want to commend Chairman Smith and the Ranking Minority 
Member, Ms. McKinney, of the Subcommittee on International 
Operations and Human Rights for crafting this timely initiative 
which addresses a critical area of our efforts to combat human 
rights abuses, treatment of those individuals who have suffered 
the effects of torture at the hands of governments as a means 
of destroying dissent and opposition.
    The resolution rightly recognizes the importance of 
treating victims of torture in order to combat the long-term, 
devastating effects that torture has on the physical and 
psychological well-being of those who have undergone this 
pernicious form of abuse. Torture is an extremely effective 
method to suppress political dissent. For those governments 
which lack the legitimacy of democratic institutions to justify 
their power, torture can provide a bulwark against popular 
opposition.
    This measure authorizes funding at the level of $10 million 
per year for the next three years for treatment centers in our 
Nation and overseas. It also authorizes our State Department to 
contribute $5 million in both fiscal years 2001 and 2002, and 
also in 2003, to the United Nations Voluntary Fund for the 
Victims of Torture.
    Political leaders of undemocratic societies still find 
torture useful, because its aims are the destruction of the 
personality. It attempts to rob those individuals who would 
actively involve themselves in opposition, to suppress their 
self-confidence and other characteristics that produce 
leadership.
    I quote from the speech by Dr. Inge Genefke, who is a 
founder of the International Treaty Movement, and I quote, 
``Sophisticated torture methods today can destroy the 
personality and the self-respect of human beings. Many victims 
are treated and threatened with having to do or say things 
against their ideology or religious convictions for the purpose 
of attacking fundamental parts of the identity, such as self-
respect and self-esteem. Torturers today are capable to create 
conditions which effectively break down the victim's 
personality and identity and their ability to live a full life 
later with and amongst other human beings.''
    Accordingly, I urge our colleagues to join in approving 
this legislation.
    I now recognize the sponsor of this legislation, the 
distinguished Chairman of our Subcommittee on International 
Operations, Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman, and thank you 
for scheduling the markup of this legislation this morning.
    Mr. Chairman, on June 29th, the Subcommittee on 
International Operations and Human Rights conducted a hearing 
on U.S. policy toward victims of torture. The testimony 
presented there emphasized the continuing, compelling need for 
this legislation. Those who suffered the unspeakable cruelty of 
torture at the hands of despotic governments bear physical, 
emotional and psychological scars for the rest of their lives. 
For many, if not most, the ordeal of torture does not end when 
they are released from a gulog, laogai or prison. These walking 
wounded need professional help and rehabilitation.
    The United States law regarding torture victims took a 
giant step forward on October 30th, 1998 with the enactment of 
Public Law 105-320, the Torture Victims Relief Act. I am proud 
to have been the principal sponsor of that act, which was 
cosponsored by many of our colleagues on this Committee. It 
authorized $12.5 million over two years for assistance to 
torture victim treatment centers both here in the United States 
and around the world. It also authorized a U.S. contribution in 
the amount of $3 million per year to the United Nations 
Volunteer Fund for Torture Victims. Finally, it required that 
foreign service officers be given specialized training in the 
identification of torture and its long-term effects, techniques 
for interviewing torture victims and related subjects.
    To continue the good work begun by that law, I, along with 
Chairman Gilman, Ms. McKinney, and Mr. Lantos, recently 
introduced H.R. 2367, the Torture Victims Relief 
Reauthorization Act. This bill will extend and increase the 
authorization of last year's act through fiscal year 2003. For 
each of the three fiscal years it covers, the reauthorization 
act authorizes $10 million for domestic treatment centers.
    The Center for Victims of Torture estimates that there are 
as many 400,000 victims of foreign governmental torture here in 
the United States. At present, there are only 14 domestic 
treatment centers, which are able to serve only a small 
fraction of the torture population in the U.S. Because many of 
their clients do not have health insurance, the centers must 
bear most of the costs of treatment. Our hope is that the money 
authorized by H.R. 2367 will support these existing efforts and 
perhaps even enable the Department of Health and Human Services 
Office of Refugee Resettlement to establish much-needed new 
centers.
    The bill also authorizes $10 million per year for 
international treatment centers. According to the International 
Rehabilitation Council for Torture Victims, the IRCT, the 
leading international government organization engaged in 
treating victims of torture, $33 million is needed in 1999 
alone for international rehabilitation efforts. Currently, 
there are about 175 torture victim treatment centers around the 
world.
    The bill also authorizes $5 million per year for U.S. 
contribution to the United Nations Voluntary Fund for Victims 
of Torture. I am pleased to note that the Administration 
greatly increased the U.S. contribution to the fund this year 
to $3 million, the full level authorized by the Torture Victims 
Relief Act. We should continue this trend and even expand our 
commitment to this worthwhile multilateral effort.
    Finally, the bill requires the State Department to report 
on its effort to provide specialized training to foreign 
service officers as mandated by the Torture Victims Relief Act. 
It is important that our personnel who deal with torture 
victims be able to identify evidence of torture and its long-
term effects, and learn techniques for interviewing torture 
victims who may still be suffering trauma from their 
experiences.
    At our recent Subcommittee hearing, it became apparent that 
the State Department has not implemented any such training. 
This reporting requirement will serve as a wake-up call to 
prompt the Department to fill its statutory obligations.
    I am very happy that this legislation is before us. At the 
appropriate time, Mr. Chairman, I do have a technical amendment 
at the desk.
    Chairman Gilman. Are you asking for the amendment to be 
submitted?
    Mr. Smith. I would ask that the amendment be considered.
    Chairman Gilman. The clerk will read.
    Ms. Bloomer. The amendment offered by Mr. Smith, page 2, 
line 5, strike----
    Mr. Smith. Mr. Chairman, I ask unanimous consent that the 
amendment be considered as read.
    Chairman Gilman. The amendment will be considered as read. 
The clerk will distribute the amendment.
    The gentleman is recognized for 5 minutes on the amendment.
    [The information appears in the appendix.]
    Mr. Smith. Mr. Chairman, I will be very brief; it was 
prepared with the assistance of Mr. Gejdenson and his staff. 
The amendment does two things, first it conforms the language 
of the authorization for assistance to international torture 
centers in this bill to the corresponding language of the 
Torture Victims Relief Act as enacted into law last year.
    Second, it renumbers the section to the Foreign Assistance 
Act created by last year's legislation. Congress inadvertently 
created two sections with the same section number, and this 
amendment, a technical amendment, will fix that problem. I am 
grateful to David Abramowitz, of the Democratic staff, for 
bringing our attention to this--the need for this amendment. I 
do urge its adoption.
    Chairman Gilman. Thank you. The gentleman has offered the 
amendment. Are there any Members seeking recognition on the 
amendment?
    If no one seeks recognition, the question is now on the 
amendment. All those in favor, signify in the usual manner.
    Opposed?
    The amendment is carried.
    We will now proceed to consider the measure further.
    Are there any Members seeking recognition on the measure 
before us? If there is no one seeking recognition, I recognize 
Mr. Bereuter for a motion.
    Mr. Bereuter. Mr. Chairman, I move that the Chair may be 
requested to seek consideration of the pending bill on the 
suspension calendar.
    Chairman Gilman. The question is now on the motion by the 
gentleman from Nebraska. Those in favor of the motion, signify 
in the usual manner.
    Those opposed, say no.
    The ayes have it; the motion is agreed to.
    Further proceedings on this matter are now postponed.
    Chairman Gilman. We will now proceed to the other measure 
before this Committee, H.R. 1883, relating to Iran. This bill 
was referred by the Speaker to our Committee on International 
Relations and also to the Committee on Science; in each case, 
for consideration of such provisions which fall within the 
jurisdiction of the committee concerned.
    The bill was introduced by myself, by Mr. Gejdenson, by Mr. 
Sensenbrenner, and by Mr. Berman. The Chair lays the bill 
before the Committee and the clerk will report the title.
    [The information appears in the appendix.]
    Ms. Bloomer. H.R. 1883, a bill to provide for the 
application of measures to foreign persons who transfer to Iran 
certain goods, services, or technology, and for other purposes.
    Chairman Gilman. Without objection, the first reading of 
the bill is dispensed with. The clerk will read the bill for 
amendment.
    Ms. Bloomer. Be it enacted by the Senate and the House of 
Representatives of the United States of America in Congress 
assembled, Section 1. Short title. This act may be cited as the 
Iran----
    Chairman Gilman. I have an amendment in the nature of a 
substitute at the desk on behalf of myself and Mr. Gejdenson. 
The clerk will report the amendment, which is on the desks of 
the Members.
    [The information appears in the appendix.]
    Ms. Bloomer. Amendment offered by Mr. Gilman and Mr. 
Gejdenson. Strike all after the enacting clause and insert the 
following: Section 1. Short title. This act may be cited as the 
Iran Nonproliferation Act of 1999.
    Chairman Gilman. I ask unanimous consent that the amendment 
in the nature of a substitute be considered as having been 
read, and that it be open to amendment at any point. Without 
objection, it is so ordered.
    I will now recognize myself to speak briefly to the 
amendment in the nature of a substitute.
    Today we are marking up the Iran Nonproliferation Act of 
1999, which Mr. Gejdenson, Mr. Berman and I introduced on May 
20th of this year. This legislation has 220 cosponsors. We feel 
we must be on the right track.
    The purpose of our legislation is to reverse the very 
dangerous situation we are confronting today in which firms in 
Russia, in China, in North Korea and elsewhere are transferring 
to Iran goods, services, and technology that will assist in the 
development of weapons of mass destruction, and missiles 
capable of delivering such weapons. In the hands of a rogue 
state like Iran these weapons pose a clear and present danger, 
not only to our friends and allies in the region, but also to 
the tens of thousands of our military personnel in the Persian 
Gulf and in adjacent areas.
    The proliferation of these technologies to Iran has been 
going on for a number of years, and to its credit, the 
Administration has been working to try to stop it. But all 
available evidence indicates that, to date, those efforts have 
failed. The proliferation today is as bad as it has ever been.
    The purpose of our legislation is to give the 
Administration some new tools to address the problem, giving 
the countries that are transferring these items to Iran 
powerful new reasons to stop proliferating, and giving Congress 
greater insight into what is happening.
    A summary of our legislation is now before the Members, so 
I will not belabor the details of what it does. Mr. Gejdenson 
and I have laid before the Committee the amendment in the 
nature of a substitute that is now before us. It contains a 
number of changes to the bill that we have agreed to make. Some 
of these changes were made at the request of the 
Administration, and others at the request of Mr. Gejdenson and 
other Members.
    Most of them are technical in nature, dealing with such 
matters as timeliness for submission of reports to Congress and 
refinements of some of the definitions. A few are more 
substantive. For instance, in section 5, we have added two 
additional grounds upon which the President can decide to 
exempt a foreign person from application of measures provided 
in the bill.
    There are instances in which a transfer made by the foreign 
person was consistent with the procedures and with an 
international nonproliferation regime in instances in which a 
foreign person has been adequately punished by the government 
with primary jurisdiction over the person.
    Overall, I believe that the changes in this bipartisan 
amendment offered by myself and Mr. Gejdenson improve the bill, 
and I will urge its adoption.
    I now turn to one of the original cosponsors of the 
measure, Mr. Gejdenson, and ask for his comments.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you. I want to commend the staffs and 
the Members for working together to come up with language to 
try and deal with some of the complexities in this issue. There 
are obviously some remaining questions of control and the 
proper responses. I think anyone watching the situation in 
Russia today has to be concerned about the stability of a 
country that still possesses 6,000- to 9,000 warheads, that has 
the capabilities in a number of technologies that provide for 
weapons of mass destruction.
    As much as we try to assist the Russians in developing a 
civil society and developing the ability to govern themselves 
in a democratic manner, we need to make sure that the Russian 
Government continues its basic responsibilities, like 
nonproliferation; and I commend the Chairman and both staffs 
for the work we have done in trying to narrow some of the 
differences in trying to achieve the goal of limiting the 
proliferation of technology out of Russia.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Who else seeks recognition? Mr. Rohrabacher.
    Mr. Rohrabacher. If there is another Member who wants to 
speak on this, I will be happy----
    Chairman Gilman. Mr. Berman.
    Mr. Berman. Thank you, I move to strike the last word.
    I support the substitute. I support the base bill. 
Secretary Indyk, when he was here recently, testified that 
Iran's clandestine efforts to procure nuclear, chemical, and 
biological weapons continues despite Iran's adherence to 
relevant international nonproliferation conventions. In 
addition to their work in the nuclear, chemical, and biological 
weapons arena, we are all aware of their testing and 
development of intermediate range ballistic missiles, and 
missiles which ultimately might be longer than that, and the 
threat that that poses.
    It seems to me we need, and have an obligation, to do 
everything we can to impede Iran's ability to develop these 
weapons, and that applies without regard to what one's view is 
about what our political and diplomatic approach to Iran might 
be. We can pursue negotiations. We can pursue openings. We can 
seek to develop closer ties with the Khatami regime, and at the 
same time, I think we have an obligation to our own people and 
to our allies to do everything we can to impede their ability 
to develop weapons of mass destruction and the means to deliver 
them.
    This is an important piece of legislation seeking to do 
just that. While the legislation applies generically across the 
board, there has been specific focus on the issue of 
proliferation by entities in Russia to Iran. For anyone who has 
any doubts about this issue, I would urge them to obtain the 
classified briefings on the subject and get a sense of what we 
know of what is actually happening.
    There are some who might think that this is just a form of 
Russia-bashing. I would disagree. One can decide that the 
primary issue in U.S. foreign policy is to do everything we can 
to ensure the successful transition of Russia to democracy. 
Some think we should be doing far more than we are even doing 
in the context of threat reduction by virtue of working with 
them to safeguard enriched plutonium, to destroy weapons, 
warheads, to employ these scientists, to do things which show 
them that we have no intentions against them and their 
sovereignty and their security.
    At the same time, I think we have--not just a right, but an 
obligation to tell them something which is clearly in our 
national security interests and in their national security 
interests. As their leadership has acknowledged over and over 
again, we have--we cannot sit around and just go forward 
working with them while they are allowing this kind of 
technology, key critical components for these kinds of systems, 
to proliferate to Iran. I think many experts in the field of 
U.S.-Russian relationships--people, in fact, who are critical 
that we haven't done enough in terms of Russia--would not argue 
with the point that in an area where the Russian Government has 
control, we have a right and an obligation to expect that the 
Russian Government will do every single thing it can to stop 
that proliferation.
    So I want to commend the Chairman and the Ranking Member 
for joining together on this legislation. I also want to thank 
the Chairman for putting the bill over until after the recess. 
There were certain representations made by then-Russian Prime 
Minister Stepashin regarding things that were going to be done, 
and both the Chairman and, in the end, the Republican 
leadership, agreed to put the bill over. Of course, we now have 
a new Prime Minister, so it is unclear what the value of those 
representations are, but at this point I think we should move 
ahead with the legislation.
    There is one issue that is of some concern, and that is to 
question the extent to which we are asking the Space Agency in 
Russia to control more than they can, and to have impacts on 
that which they cannot control. But if I were to err, at this 
particular point in the legislative process, on the side of 
underestimating their ability to control versus overestimating, 
I choose to overestimate.
    This legislation may in fact do that. We have plenty of 
time to take a look at that. So I would urge the adoption of 
the substitute and the bill, and its passage.
    Chairman Gilman. Thank you, Mr. Berman.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you, Mr. Chairman. I would like to 
commend you and the other Members involved with this piece of 
legislation for demonstrating that the Congress, and the House, 
and this Committee, certainly have a role to play in foreign 
policy, and in oversight of American foreign policy, and 
especially in this vital region--or shall I say ``volatile 
region,'' instead of ``vital region,'' because they are both 
vital and volatile.
    But taking note of the importance that we have placed on 
Iran--and let me note at this moment that we have not paid that 
same attention to what has been going on in Afghanistan right 
next door, and that efforts by this Committee to obtain 
documents from the Administration concerning our policy in 
Afghanistan have been met with contempt, and with stonewalling, 
and with obfuscation.
    I would like to place in the record a letter that I sent to 
Assistant Secretary Karl Inderfurth about the request of 
documents concerning our policy in Afghanistan that was made 
over a year ago.
    [The information appears in the appendix.]
    Mr. Rohrabacher. I would also place in the record the 
documents that finally arrived after a year. These are the 
documents--so the other Members of my Committee who remember me 
making noise about this issue--these are the documents about 
Afghanistan, they are about one-sixteenth of an inch thick, and 
most of them are newspaper clippings responding to our 
oversight responsibilities. Responding to requests for 
information that were made by this Committee in this volatile 
region in such a manner is contempt of this Committee and 
contempt of our role to oversee American foreign policy.
    Tomorrow, supposedly, some more documents will be made 
available to this Committee, and to myself, and I hope that 
there is much more substance to them than what has been 
presented.
    Chairman Gilman. Without objection, the documents will be 
made a part of the record.
    [The information appears in the appendix.]
    Mr. Rohrabacher. So I support this measure on Iran. I would 
again alert my fellow Members of this Committee that what is 
going on in Afghanistan is as important to America's national 
security as is what is going on in Iran, because we have a 
terrorist base camp where all of the world's heroin is being 
produced right next door to Iran, and our Administration has 
thwarted our attempts to get the documentation of what our 
policy is toward that rogue regime, the Taliban regime.
    I am contending again, and will close my remarks with the 
contention that this Administration has a covert policy of 
supporting the Taliban, which is one of the worst human rights 
abusers toward women. It is an abomination, and the response to 
our requests for information has been an insult.
    With that, I yield back the balance of my time.
    Chairman Gilman. Thank you, Mr. Rohrabacher.
    Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman.
    As someone who has consistently supported and will continue 
to support disarmament and peace initiatives throughout the 
world, I believe that this legislation will certainly move us 
one step toward nonproliferation of weapons of mass destruction 
in the Middle East. I am a cosponsor of this legislation 
because I strongly believe that we must take any and all 
actions to stop the spread of these weapons of mass destruction 
in the Middle East, and elsewhere in the world.
    I just returned from Israel with several of my colleagues, 
and let me just say to you that I know, and I think all of us 
know, that the security concerns in the entire region are very, 
very real; but also the prospects for peace are very, very 
real. So this bill moves us, I believe, toward both peace and 
security, not only in the region, but in the entire world.
    So I thank Chairman Gilman and our Ranking Member, Mr. 
Gejdenson, for working out an agreement on this so we can move 
it forward. I certainly support the substitute and hope we do 
move toward passage of this today.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Ms. Lee.
    Mr. Houghton.
    Mr. Houghton. Thank you, Mr. Chairman.
    I wonder, Mr. Chairman, if we can have comments from the 
Administration on this? I am particularly interested in their 
reaction.
    Chairman Gilman. Is someone from the Administration 
prepared to comment? Please identify yourself.
    Ms. Cooks. I am Shirley Cooks, Deputy Assistant Secretary 
of State for Legislative Affairs. With your permission, Mr. 
Chairman, I would like to ask Deputy Assistant Secretary for 
Nonproliferation Controls John Barker to respond to those 
questions.
    Chairman Gilman. Mr. Barker--thank you, Ms. Cooks.
    Mr. Barker, please identify yourself.
    Mr. Barker. Thank you very much, Mr. Chairman.
    I am the Deputy Assistant Secretary for Nonproliferation 
Controls in the Nonproliferation Bureau of the State 
Department. We appreciate the opportunity to comment on this 
bill.
    A number of you have made some very good statements about 
your proper oversight role here, about the fact that we as the 
United States Government have the right and obligation to 
expect Russia and other countries to do everything they can to 
prevent the spread of weapons of mass destruction, and an 
acknowledgment that the Administration is working hard to try 
to prevent that proliferation, particularly to Iran.
    You have noted that there are some new tools that you will 
provide for us through this legislation, in the form of 
sanctions and other types of incentives and disincentives for 
countries such as Russia and China, to prevent that type of 
proliferation.
    Mr. Chairman, I think we all share the same goals, we all 
want to make sure that the proliferation problem is brought 
under control. None of us are satisfied that that is the 
current state right now. What our concern is, however, with 
this bill, is that it will be counterproductive in what we are 
trying to accomplish.
    Let us talk first about the resources that would be 
necessary, from the Administration's standpoint, to respond to 
this bill. You have set up a plan that would require us either 
to impose sanctions or transfers based on credible information, 
or to provide reports to Congress as to why we have not 
provided those sanctions and implemented those sanctions.
    We work very hard, sir, to try to respond to your oversight 
requirements and your oversight obligations. We come up and try 
to brief you. We appear for hearings. We send you a number of 
congressional reports every year--many reports, several hundred 
pages long each in some cases. We have given you a list of the 
reports and we plan to follow through on those obligations.
    We want to make sure that we put our resources toward 
fighting proliferation rather than writing reports. That is one 
of the problems that we will have with this bill. We are 
certainly at your disposal to send you all of the reports that 
you need, but we ask that you look carefully at whether it is 
worthwhile to put all of our resources toward writing reports 
versus trying to stop, trying to interdict, trying to work with 
other countries to ensure that the proliferation problem does 
not go forward.
    Although, of course, the bill is global in scope, its 
intended targets are primarily the Russian entities in Iran. We 
have plenty of authority for dealing with the Russian entities 
now, and Russia is starting to take some steps in the right 
direction. None of us are saying that we are satisfied with 
that. None of us believe that Russia has full control over the 
proliferation problem, but we have seen that Russia is starting 
to take some steps.
    They have recently enacted some new, strong, export control 
legislation, that export control legislation enacted in part 
because of some assistance that we provided through our export 
control work with them. They have adopted a game plan in order 
to ensure that there will be a cutoff of this type of 
proliferation to Iran; and they are working hard and equipping 
their entities with internal compliance programs designed to 
stop proliferation. We are working hard with the Russians to 
give them the training that they need in order to carry that 
out.
    Mr. Chairman, none of us believe that Russia is where it 
needs to be, and indeed other countries are where they need to 
be, in terms of stopping proliferation to Iran. There is no 
higher priority this Administration places then on ensuring 
that there is a cutoff of that type of assistance.
    The problem here is we will eliminate the incentive for the 
countries to work with us. We have made some progress with 
Russia; we have a long way to go. But if we set up a regime 
where sanctions are mandatory, or we have to spend most of our 
time trying to justify why sanctions have not been imposed, we 
will be providing Russia with an incentive not to cooperate 
with us, not to work with us, and not to attempt to follow 
through on some of the obligations that we all believe are 
necessary.
    Mr. Bereuter. [Presiding.]  The gentleman will suspend. The 
Chair asks unanimous consent that the gentleman have two 
additional minutes so that the Representative may continue. Mr. 
Houghton.
    Mr. Barker. Thank you very much, sir.
    Overall, we believe that you have exactly the right goals. 
We need to get a better handle on nonproliferation, both in 
terms of Russia and other countries. None of us believe that 
Russia has taken all of the steps that it needs to take, but I 
think we can all share the view that in order to get Russia to 
move forward we are going to have to work with them 
cooperatively. We are going to have to use the tools at our 
disposal and, indeed, use the sanction laws and discretionary 
determinations which we already have within the executive 
branch.
    We have already imposed some sanctions against Russian 
entities. Those sanctions have had an effect. Many times I 
traveled to Russia and have had to deal with interlocutors on 
the other side of the table who are quite unhappy with the fact 
that we have taken those decisions. But I feel very comfortable 
in defending those, because those entities do not deserve to 
have business with the United States if they are providing 
proliferation-related items to Iran.
    In general, we have seen through a number of congressional 
determinations, such as the Cox Committee, the importance of 
supporting multilateral regimes and ensuring that our export 
controls are enforced worldwide.
    Another problem that we have identified in this bill, and 
we have sent this to you in writing, is the fact that this bill 
would work at undermining our multilateral regimes. We might, 
in some instances, have to report on transfers by other 
countries----
    Mr. Houghton. Could I just interrupt a minute? I am sorry.
    Because we are running out of time, could you just give me 
a one-word answer: Does the State Department support this bill?
    Mr. Barker. We strongly oppose it, sir.
    Mr. Bereuter. I thank the gentleman. Does the gentleman 
wish to yield to Mr. Berman?
    Mr. Houghton. Yes. Fine.
    Mr. Berman. If I could just ask the Administration----
    Mr. Bereuter. Without objection, the gentleman will have 
one additional minute. Mr. Houghton yields to Mr. Berman.
    Mr. Berman. Recognizing that the Administration has made a 
priority, particularly in the last couple of years, year and a 
half, of pushing the Russians to stop their entities from 
proliferating, and recognizing that the Russian Government has 
made some wonderful representations and taken some modest steps 
to do something about that, is there any doubt that, 
notwithstanding your efforts and the Russian steps, there have 
been proliferating activities from Russian entities in the last 
year and a half?
    Mr. Barker. There is no doubt that without our work the 
proliferation problem would have been worse. But there is no 
doubt that the proliferation problem continues.
    Mr. Berman. Okay.
    The other thing--my second question--that is not really a 
question, it is just these reports can be classified if the 
Administration chooses to make them classified. The mere fact 
of reporting transfers of items on a chemical weapons list or 
on a nuclear suppliers list or on a missile technology control 
list, the Congress of the United States should not be the basis 
for undermining international proliferation regimes. We are one 
government.
    So that part of the argument, I just don't--it doesn't have 
any weight with me. The notion that simply the Administration 
reporting what has been transmitted by the country that might 
be a member of the regime that is on a list of items that are 
of special concern in the area of nuclear, chemical, 
biological, or missile proliferation, that that item is 
reported to the Congress somehow undermines the regime, to me 
doesn't hold a lot of water.
    Mr. Bereuter. We will return to regular order. You will 
undoubtedly have a chance to address this in a minute. The time 
of the gentleman has expired.
    The gentleman from California, Mr. Lantos, is recognized 
for five minutes.
    Mr. Lantos. Thank you very much, Mr. Chairman.
    I support the legislation, but I would like to direct my 
remarks to a much broader issue; that is, Russian-U.S. 
relations. Earlier this week, I had a very lengthy and very 
substantive meeting in Moscow with the Foreign Minister of 
Russia, and I addressed the student body of the Russian 
Diplomatic Institute, a very impressive group of young men and 
women, all of them speaking impeccable English, and extremely 
well informed.
    I believe, Mr. Chairman, we have a very serious problem in 
dealing with U.S.-Russian relations on a piecemeal basis. I 
believe that proliferation with respect to Iran continues, and 
I think the legislation deals with it appropriately. But what I 
think is more important than even that issue is a growing 
deterioration of our relations with Russia, stemming in large 
measure from their dramatic change in the international arena.
    My first visit to Russia was in 1956. I have been going 
back with great frequency over the intervening decades, and I 
don't think we are sufficiently sensitive to the fact that one 
of the great, one of the two great superpowers of this world 
just a few years ago is now a bankrupt, destitute society 
facing enormous internal pressures and attempting to make its 
way in an entirely new world.
    I think one of the horrendous mistakes of the Bush 
Administration was to assume that the collapse of the Soviet 
Union would bring about smoothly the emergence of a democratic 
society and a market economy. This incredible naivete, our 
failure to lubricate the process appropriately, is at the 
bottom of many of our current problems.
    My feeling is that what we have today in Russia is a degree 
of anti-Americanism widespread throughout all strata of 
society, even among the most educated and knowledgeable people. 
When I spoke at the university training diplomats on Monday--
could I have order, Mr. Chairman?
    Mr. Bereuter. The Committee will be in order, Members, 
staff, and audience.
    Mr. Lantos. It took me a great deal of time to attempt to 
convince my audience that our engagement in Kosovo was not 
motivated by a desire to humiliate Russia, that our 
investigation of corruption and money laundering and capital 
flight is not motivated by a desire to attack Russia. I think, 
in connection with this piece of legislation, it is extremely 
important we underscore that what we are interested in is 
stopping proliferation and not again humiliating, and 
attacking, and harassing Moscow.
    I would like to request Chairman Gilman, at the earliest 
possible time, to hold a major public hearing on U.S.-Russian 
relations. This is still the only other nation on the face of 
this planet with a vast stockpile of weapons of mass 
destruction. Russia will again emerge as a major power on this 
planet, if not in five years, in fifteen years, and I think it 
is extremely important that our relations get back on track.
    This piece of legislation--which I believe is needed, and I 
support it--can't help but continue to exacerbate their 
persistent misunderstanding of our motivation. I think it is 
absolutely critical that this Committee, in an open and major 
hearing, deal with the full spectrum of our relations with 
Russia.
    Many things have gone right in Russia. Fifteen years ago, 
none of us would have expected free elections, which will be 
coming for the Duma and the presidency; free press; every 
Russian having a passport; American business still functioning 
very visibly throughout Russia. I think it is important not to 
focus on momentary difficulties, however serious they are, and 
to put U.S.-Russian relations in their proper historic 
perspective.
    Thank you, Mr. Chairman.
    Mr. Bereuter. Thank you, Mr. Lantos. Your request will be 
relayed to Chairman Gilman by this Member. I would say all of 
us that attended the Russian-American seminar by the Aspen 
Institute probably came away with the same attitude and 
concerns that the gentleman has expressed.
    The gentleman from New Jersey, Mr. Rothman, is recognized.
    Mr. Rothman. Mr. Chairman, I speak in support of the 
Gilman-Gejdenson substitute. I think this is a useful tool for 
this Nation to enforce our longstanding policy against nuclear 
proliferation all around the world, but also specifically with 
regard to Iran, an as yet declared--self-declared enemy of the 
United States and our allies throughout the region.
    It also is an effective and useful tool in reiterating our 
continued attention to this problem, notwithstanding the great 
many wishful thoughts many of us and others have about progress 
in the region. But wishful thinking expressed without our 
expressed reservations about the status quo can mislead our 
enemies and those who would do us and our allies harm. That is 
why I am supporting this effort; it is full of sound provisions 
that deal with a subject that should concern not only this 
Committee, but all Americans.
    Imagine if the United States of America, the greatest power 
on the Earth, did nothing to stem the flow of dangerous weapons 
technology to the Republic of Iran; imagine if the United 
States of America, the greatest power on Earth, were to support 
the free flow of dangerous weapons technology by our inaction 
or omission, notwithstanding the efforts presently being 
undertaken; imagine if the United States of America were to 
allow Iran, a country which has pledged to destroy our greatest 
ally in the Middle East, Israel, and pledged to undermine 
America's interests throughout the region, were to allow Iran 
to secure the means by which it could destroy our allies and 
our vital national interests.
    I can't imagine these things occurring, that is why I am 
grateful to our Chairman, Mr. Gilman, and our Ranking Member, 
Mr. Gejdenson, for putting forth this substitute amendment. We 
have few more important priorities as an International 
Relations Committee than to prevent the spread of weapons of 
mass destruction to terrorists supporting nations like Iran.
    Hopefully, Iran and Russia will join the fold of peace-
loving democratic nations, and we will do all that we 
reasonably can to support those efforts. But in the meantime, 
as long as Iran remains a self-declared enemy of the United 
States of America, bent on nuclear proliferation and the 
creation of weapons of mass destruction aimed at not only our 
allies in the region, but our allies in Europe, with 
aspirations to attain the capability of attacking the 
continental United States with weapons of mass destruction, we 
need to stay on guard, focused as a nation, and to remind the 
world that we are on guard and focused in our attention to 
those who would do us harm and do our allies harm.
    I urge my colleagues to support the Gilman-Gejdenson 
substitute.
    Mr. Bereuter. Thank you, Mr. Rothman.
    The Chair would advise of its intention to hear from 
another Democratic Member, Mr. Crowley; then we will move to 
the Brady amendment. We have a quorum here. Then it is my 
expectation we will be able to move to final passage.
    The gentleman is recognized. Mr. Crowley.
    Mr. Crowley. Mr. Chairman, I will be very, very brief. I 
have a statement that I will ask unanimous consent, in 
deference to time, to be read into the record. Just let me add, 
I think the issue of nuclear proliferation, in and of itself, 
is a very scary thought for every American, with the 
possibility of nuclear proliferation by rogue nations being at 
the top of the list.
    I would agree with one statement; I think this will be a 
useful tool. I am sympathetic to the remarks of the State 
Department and the Administration; unfortunately, I don't 
agree. I think the American people are looking for action, not 
only on the part of the State Department and the 
Administration, but also by Congress. I think that these are 
reasonable tools that you will hopefully find helpful.
    So I will be supporting this measure. I thank the Chairman 
for introducing it.
    Mr. Bereuter. Thank you, Mr. Crowley.
    [The statement of Mr. Crowley appears in the appendix.]
    Mr. Bereuter. The gentleman from Texas, Mr. Brady, is 
recognized first for a statement, and then to offer his 
amendment.
    Mr. Brady. Thank you, Mr. Chairman.
    America has a huge stake in Russia's successful transition 
to a peaceful and open democracy, and no one has made a bigger 
commitment to Russia over the years than America. But this 
reminds me of a statement P.T. Barnum once made, which is, 
``There is a sucker born every minute.'' While he may have 
created the statement, Russia certainly has embraced it.
    Each year Russia sets up a tent and America is first in 
line, with billions of dollars, to see a show on democracy, on 
free enterprise, on peace. However, each year the stage is 
empty, while behind the tent Russia continues to arm America's 
and its allies' most hateful and deadliest enemy.
    Now, fool us once, shame on them; fool us twice, shame on 
us; and the fifth or sixth time, well, that is a reflection on 
our own competency.
    The real tragedy today is that dollars that we are using, 
American tax dollars that we hope to be used for democracy, are 
really used to harm and destabilize democracy among our allies. 
Dollars we hope to go to free enterprise are used to 
destabilize the progress that is made around the world, and the 
dollars that are used for peace that could be used for our 
veterans or to build our own--rebuild our own military defenses 
are used, in effect, to start to lay the foundation for Cold 
War and threats against America's security.
    There are new and deadly threats to America's security, and 
we must not be the one funding those threats, directly or 
indirectly. But I support this bill, Mr. Chairman. When the 
time is appropriate, I have an amendment that I think clearly 
lays to rest one of the objections that has been raised.
    Mr. Bereuter. Would the gentleman yield?
    Chairman Gilman. [Presiding.] Mr. Bereuter.
    Mr. Bereuter. It is my intention, as I announced, to be 
able to offer his amendment at this point, if that is okay with 
Chairman Gilman. The gentleman still has the time.
    Mr. Brady. Mr. Chairman, I am ready to--there is an 
amendment at the desk.
    [The information appears in the appendix.]
    Chairman Gilman. Would the clerk distribute the amendment?
    Ms. Bloomer. Amendment offered by Mr. Brady: On page 11, 
after line 13, insert the following new subsection, (f) Service 
module exception, (1)----
    Chairman Gilman. The amendment is considered as having been 
read. The gentleman is recognized.
    Mr. Brady. As a supporter of this bill, and as a Member of 
the Science Committee and from a region, Houston, that has a 
big stake in NASA and the International Space Station, I took a 
hard look at one of the key sections in this bill dealing with 
the current space station. What I feel strongly about is that 
this bill is not anti-space station.
    The bill does nothing to prevent all current space station 
agreements and payments from being carried out. Furthermore, it 
doesn't remove Russia as a part in the program, it doesn't 
affect the existing partnership, and it only applies to 
additional payments made above and beyond the existing 
agreement. In fact, the only way this bill can affect the space 
station is if the Russians are proliferating to Iran.
    If Russia is clean, as we hope them to be, then the U.S. 
can continue to send payments. This amendment lays to rest any 
valid objections to this bill as those who--as it relates to 
the space station.
    Mr. Chairman, objection has been raised, ``what if?'', what 
if after all of the testing of the service module provided by 
Russia, when we get it into orbit, problems occur, what then? 
This amendment is a common-sense response to that--it basically 
recognizes the service module built by Russia is critical to 
the space station, it is the living quarters for our 
astronauts, it is hanging in low Earth orbit, and test as well 
as you can, there is nothing like putting something in orbit to 
find out what might go wrong.
    What this amendment says is that in extraordinary 
circumstances and in areas of life support, environmental 
control, orbital maintenance functions, where there is a flaw 
that we cannot fix ourselves or there is not an alternative 
means, that we can contract with the Russian Space Agency or 
its subcontractors, as long as they are clean as well.
    To make sure that this isn't open-ended, this section and 
this amendment ends--ceases to be effective after a U.S. 
propulsion module is in place on the station. I think this 
removes any ``what if'' concerns about the space station. It 
provides us flexibility in a timely response if something 
critical goes wrong; and because this entire bill deals with 
protecting America's interests first, I believe this amendment 
does this.
    It passed the Space and Aeronautics Subcommittee 19-to-3, 
backed by supporters of the old base bill like myself. At this 
point, I would conclude my remarks.
    Chairman Gilman. Thank you, Mr. Brady.
    Let me note that this is an amendment to the Gilman-
Gejdenson amendment, and that it has been worked out with the 
Science Committee. The Science Committee has no objection, nor 
do we have any objection to the amendment.
    Does anyone else seek recognition? Mr. Rohrabacher.
    Mr. Rohrabacher. Mr. Chairman, I am the Chairman of the 
Space and Aeronautics Subcommittee that oversees this project, 
and I would like to commend Mr. Brady for his responsible 
amendment and his efforts to make sure that what we do will not 
interfere with this multibillion dollar program that we have 
that is under way; and that the efforts that we are trying to 
make to prevent this proliferation with Iran are aimed at 
further future activities, rather than activities that will--
that are currently under way with Russia and the space station.
    So I would like to commend him and support his amendment.
    Chairman Gilman. If there are no further comments, the 
question is now on the Brady amendment. All those in favor, 
signify in the usual manner.
    Opposed?
    The ayes appear to have it.
    The amendment is agreed to.
    If there are no further amendments, without objection, the 
previous question is ordered on the amendment in the nature of 
a substitute. Without objection, the amendment in the nature of 
a substitute is agreed to.
    The gentleman from Nebraska, Mr. Bereuter, is recognized. 
But before he comments, let me just make note, give notice to 
our colleagues, that Doug and Louise Bereuter are now 
grandparents. Their first grandchild is a boy, Ethan, 7 pounds 
and 2 ounces, born August 12th. They are very proud of being 
new grandparents. Congratulations.
    Mr. Bereuter. Thank you.
    Chairman Gilman. We will now recognize Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman.
    I move that the Committee report the bill as amended to the 
House with the recommendation that the bill do pass.
    Chairman Gilman. The question is now on the motion of the 
gentleman from Nebraska, Mr. Bereuter. All those in favor, say 
aye.
    Those opposed, say no.
    The ayes have it.
    We will take a roll call on the measure. Please signify in 
the usual manner.
    The clerk will call the roll.
    Ms. Bloomer. Mr. Gilman.
    Chairman Gilman. Aye.
    Ms. Bloomer. Mr. Gilman votes aye.
    Mr. Goodling.
    [No response.]
    Ms. Bloomer. Mr. Leach.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Mr. Bereuter.
    Mr. Bereuter. Aye.
    Ms. Bloomer. Mr. Bereuter votes yes.
    Mr. Smith.
    Mr. Smith. Yes.
    Ms. Bloomer. Mr. Smith votes yes.
    Mr. Burton.
    [No response.]
    Ms. Bloomer. Mr. Gallegly.
    [No response.]
    Ms. Bloomer. Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Yes.
    Ms. Bloomer. Ms. Ros-Lehtinen votes yes.
    Mr. Ballenger.
    [No response.]
    Ms. Bloomer. Mr. Rohrabacher.
    Mr. Rohrabacher. Yes.
    Ms. Bloomer. Mr. Rohrabacher votes yes.
    Mr. Manzullo.
    [No response.]
    Ms. Bloomer. Mr. Royce.
    Mr. Royce. Yes.
    Ms. Bloomer. Mr. Royce votes yes.
    Mr. King.
    [No response.]
    Ms. Bloomer. Mr. Chabot.
    Mr. Chabot. Yes.
    Ms. Bloomer. Mr. Chabot votes yes.
    Mr. Sanford.
    Mr. Sanford. Yes.
    Ms. Bloomer. Mr. Sanford votes yes.
    Mr. Salmon.
    Mr. Salmon. Yes.
    Ms. Bloomer. Mr. Salmon votes yes.
    Mr. Houghton.
    Mr. Houghton. Yes.
    Ms. Bloomer. Mr. Houghton votes yes.
    Mr. Campbell.
    [No response.]
    Ms. Bloomer. Mr. McHugh.
    Mr. McHugh. Yes.
    Ms. Bloomer. Mr. McHugh votes yes.
    Mr. Brady.
    Mr. Brady. Yes.
    Ms. Bloomer. Mr. Brady votes yes.
    Mr. Burr.
    [No response.]
    Ms. Bloomer. Mr. Gillmor.
    Mr. Gillmor. Yes.
    Ms. Bloomer. Mr. Gillmor votes yes.
    Mr. Radanovich.
    Mr. Radanovich. Yes.
    Ms. Bloomer. Mr. Radanovich votes yes.
    Mr. Cooksey.
    Mr. Cooksey. Yes.
    Ms. Bloomer. Mr. Cooksey votes yes.
    Mr. Tancredo.
    Mr. Tancredo. Yes.
    Ms. Bloomer. Mr. Tancredo votes yes.
    Mr. Gejdenson.
    Mr. Gejdenson. Yes.
    Ms. Bloomer. Mr. Gejdenson votes yes.
    Mr. Lantos.
    Mr. Lantos. Yes.
    Ms. Bloomer. Mr. Lantos votes yes.
    Mr. Berman.
    Mr. Berman. Yes.
    Ms. Bloomer. Mr. Berman votes yes.
    Mr. Ackerman.
    Mr. Ackerman. Yes.
    Ms. Bloomer. Mr. Ackerman votes yes.
    Mr. Faleomavaega.
    [No response.]
    Ms. Bloomer. Mr. Martinez.
    [No response.]
    Ms. Bloomer. Mr. Payne.
    [No response.]
    Ms. Bloomer.  Mr. Menendez.
    Mr. Menendez. Yes.
    Ms. Bloomer. Mr. Menendez votes yes.
    Mr. Brown.
    Mr. Brown. Yes.
    Ms. Bloomer. Mr. Brown votes yes.
    Ms. McKinney.
    [No response.]
    Ms. Bloomer. Mr. Hastings.
    [No response.]
    Ms. Bloomer. Ms. Danner.
    Ms. Danner. Yes.
    Ms. Bloomer. Ms. Danner votes yes.
    Mr. Hilliard.
    Mr. Hilliard. Yes.
    Ms. Bloomer. Mr. Hilliard votes yes.
    Mr. Sherman.
    Mr. Sherman. Yes.
    Ms. Bloomer. Mr. Sherman votes yes.
    Mr. Wexler.
    [No response.]
    Ms. Bloomer. Mr. Rothman.
    Mr. Rothman. Yes.
    Ms. Bloomer. Mr. Rothman votes yes.
    Mr. Davis.
    Mr. Davis. Yes.
    Ms. Bloomer. Mr. Davis votes yes.
    Mr. Pomeroy.
    Mr. Pomeroy. Yes.
    Ms. Bloomer. Mr. Pomeroy votes yes.
    Mr. Delahunt.
    [No response.]
    Ms. Bloomer. Mr. Meeks.
    [No response.]
    Ms. Bloomer. Ms. Lee.
    Ms. Lee. Yes.
    Ms. Bloomer. Ms. Lee votes yes.
    Mr. Crowley.
    Mr. Crowley. Yes.
    Ms. Bloomer. Mr. Crowley votes yes.
    Mr. Hoeffel.
    Mr. Hoeffel. Yes.
    Ms. Bloomer. Mr. Hoeffel votes yes.
    Chairman Gilman. The clerk will call the absentees.
    Ms. Bloomer. Mr. Goodling.
    Mr. Goodling. Yes.
    Ms. Bloomer. Mr. Goodling votes yes.
    Mr. Leach.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Mr. Burton.
    [No response.]
    Ms. Bloomer. Mr. Gallegly.
    [No response.]
    Ms. Bloomer. Mr. Ballenger.
    Mr. Ballenger. Yes.
    Ms. Bloomer. Mr. Ballenger votes yes.
    Mr. Manzullo.
    [No response.]
    Ms. Bloomer. Mr. King.
    [No response.]
    Ms. Bloomer. Mr. Campbell.
    [No response.]
    Ms. Bloomer. Mr. Burr.
    [No response.]
    Ms. Bloomer. Mr. Faleomavaega.
    [No response.]
    Ms. Bloomer. Mr. Martinez.
    [No response.]
    Ms. Bloomer. Mr. Payne.
    [No response.]
    Ms. Bloomer. Ms. McKinney.
    [No response.]
    Ms. Bloomer. Mr. Hastings.
    [No response.]
    Ms. Bloomer. Mr. Wexler.
    [No response.]
    Ms. Bloomer. Mr. Delahunt.
    [No response.]
    Ms. Bloomer. Mr. Meeks.
    Chairman Gilman. The clerk will report the tally.
    Ms. Bloomer.  On this vote, there are 33 ayes and zero 
noes.
    Chairman Gilman. The motion is agreed to. Mr. Bereuter 
requests a right to submit views. I would like to inform the 
Members that this bill will be considered next week, and we 
will be submitting our report as quickly as possible.
    Without objection, the Chair's designee is authorized to 
make motions under Rule XX with respect to a conference on the 
bill or a counterpart from the Senate. Without objection, the 
Chief of Staff is authorized to make technical, conforming and 
grammatical changes to the measure adopted by the Committee.
    Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman.
    I just wanted to announce to Members of the Committee that 
the Asia and the Pacific Subcommittee will hold a hearing on 
East Timor, and as a result of that hearing and the events that 
are occurring, Mr. Lantos and I hope to draft a bipartisan 
resolution which Members may want to consider tomorrow. I just 
wanted to advise that we are doing this.
    The hearing is at 2 o'clock today. Thank you.
    Chairman Gilman. Thank you, Mr. Bereuter. If there is no 
further business.
    Mr. Ackerman. Mr. Chairman, Mr. Chairman.
    Chairman Gilman. Mr. Ackerman.
    Mr. Ackerman. Yes, in the interest of equal time, I would 
like to announce that our colleague, Joe Crowley, and his wife, 
Casey, have become new parents of Joseph Cullen. He will be 
called Cullen, which is the name under which he is registered 
to vote.
    Chairman Gilman. We join in congratulating him.
    Mr. Crowley. It wasn't easy.
    Chairman Gilman. If there is no further business, the 
meeting stands adjourned. Thank you, gentleman and ladies.
    [Whereupon, at 11:08 a.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                           September 9, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T4063.001
    
    [GRAPHIC] [TIFF OMITTED] T4063.002
    
    [GRAPHIC] [TIFF OMITTED] T4063.003
    
    [GRAPHIC] [TIFF OMITTED] T4063.004
    
    [GRAPHIC] [TIFF OMITTED] T4063.005
    
    [GRAPHIC] [TIFF OMITTED] T4063.006
    
    [GRAPHIC] [TIFF OMITTED] T4063.007
    
    [GRAPHIC] [TIFF OMITTED] T4063.008
    
    [GRAPHIC] [TIFF OMITTED] T4063.009
    
    [GRAPHIC] [TIFF OMITTED] T4063.010
    
    [GRAPHIC] [TIFF OMITTED] T4063.011
    
    [GRAPHIC] [TIFF OMITTED] T4063.012
    
    [GRAPHIC] [TIFF OMITTED] T4063.013
    
    [GRAPHIC] [TIFF OMITTED] T4063.014
    
    [GRAPHIC] [TIFF OMITTED] T4063.015
    
    [GRAPHIC] [TIFF OMITTED] T4063.016
    
    [GRAPHIC] [TIFF OMITTED] T4063.017
    
    [GRAPHIC] [TIFF OMITTED] T4063.018
    
    [GRAPHIC] [TIFF OMITTED] T4063.019
    
    [GRAPHIC] [TIFF OMITTED] T4063.020
    
    [GRAPHIC] [TIFF OMITTED] T4063.021
    
    [GRAPHIC] [TIFF OMITTED] T4063.022
    
    [GRAPHIC] [TIFF OMITTED] T4063.023
    
    [GRAPHIC] [TIFF OMITTED] T4063.024
    
    [GRAPHIC] [TIFF OMITTED] T4063.025
    
    [GRAPHIC] [TIFF OMITTED] T4063.026
    
    [GRAPHIC] [TIFF OMITTED] T4063.027
    
    [GRAPHIC] [TIFF OMITTED] T4063.028
    
    [GRAPHIC] [TIFF OMITTED] T4063.029
    
    [GRAPHIC] [TIFF OMITTED] T4063.030
    
    [GRAPHIC] [TIFF OMITTED] T4063.031
    
    [GRAPHIC] [TIFF OMITTED] T4063.032
    
    [GRAPHIC] [TIFF OMITTED] T4063.033
    
    [GRAPHIC] [TIFF OMITTED] T4063.034
    
    [GRAPHIC] [TIFF OMITTED] T4063.035
    
    [GRAPHIC] [TIFF OMITTED] T4063.036
    
    [GRAPHIC] [TIFF OMITTED] T4063.037
    
    [GRAPHIC] [TIFF OMITTED] T4063.038
    
    [GRAPHIC] [TIFF OMITTED] T4063.039
    
    [GRAPHIC] [TIFF OMITTED] T4063.040
    
    [GRAPHIC] [TIFF OMITTED] T4063.041
    
    [GRAPHIC] [TIFF OMITTED] T4063.042
    
    [GRAPHIC] [TIFF OMITTED] T4063.043
    
    [GRAPHIC] [TIFF OMITTED] T4063.044
    
    [GRAPHIC] [TIFF OMITTED] T4063.045
    
    [GRAPHIC] [TIFF OMITTED] T4063.046
    
    [GRAPHIC] [TIFF OMITTED] T4063.047
    
    [GRAPHIC] [TIFF OMITTED] T4063.048
    
    [GRAPHIC] [TIFF OMITTED] T4063.049
    
    [GRAPHIC] [TIFF OMITTED] T4063.050
    
    [GRAPHIC] [TIFF OMITTED] T4063.051
    
    [GRAPHIC] [TIFF OMITTED] T4063.052
    
    [GRAPHIC] [TIFF OMITTED] T4063.053
    
    [GRAPHIC] [TIFF OMITTED] T4063.054
    
    [GRAPHIC] [TIFF OMITTED] T4063.055
    
    [GRAPHIC] [TIFF OMITTED] T4063.056
    
    [GRAPHIC] [TIFF OMITTED] T4063.057
    
    [GRAPHIC] [TIFF OMITTED] T4063.058
    
    [GRAPHIC] [TIFF OMITTED] T4063.059
    
    [GRAPHIC] [TIFF OMITTED] T4063.060
    
    [GRAPHIC] [TIFF OMITTED] T4063.061
    
    [GRAPHIC] [TIFF OMITTED] T4063.062
    

</pre></body></html>
